<html>
<title> - OVERSIGHT OF U.S. POLICY TOWARD BURMA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 OVERSIGHT OF U.S. POLICY TOWARD BURMA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2013

                               __________

                           Serial No. 113-94

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
85-789                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Judith Cefkin, Senior Advisor for Burma, Bureau of East Asia 
  and the Pacific, U.S. Department of State......................     8
Mr. Vikram J. Singh, Deputy Assistant Secretary of Defense for 
  South and Southeast Asia, Office of the Assistant Secretary of 
  Defense for Asian and Pacific Security Affairs, U.S. Department 
  of Defense.....................................................    22
Mr. Gregory Beck, Deputy Assistant Administrator, Bureau for 
  Asia, U.S. Agency for International Development................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Judith Cefkin: Prepared statement............................    11
Mr. Vikram J. Singh: Prepared statement..........................    24
Mr. Gregory Beck: Prepared statement.............................    31

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
Questions submitted for the record by the Honorable Steve Chabot, 
  a Representative in Congress from the State of Ohio, and 
  chairman, Subcommittee on Asia and the Pacific, and responses 
  from:
  Ms. Judith Cefkin..............................................    58
  Mr. Vikram J. Singh............................................    64
  Mr. Gregory Beck...............................................    66
Written responses from Mr. Vikram J. Singh to questions submitted 
  for the record by the Honorable Trent Franks, a Representative 
  in Congress from the State of Arizona..........................    72


                 OVERSIGHT OF U.S. POLICY TOWARD BURMA

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Steve 
Chabot (chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. The subcommittee will come to 
order.
    I would like to welcome everyone. Our colleagues will be 
here shortly. We are going to have votes here that is going to 
interrupt this probably any minute. And then I am going to try 
to get my statement in and probably the ranking member's as 
soon as he gets here.
    We would like to welcome the folks here, the witnesses, and 
the members of the Subcommittee on Asia and the Pacific.
    The ranking member, Mr. Faleomavaega, is not able to be 
here today, so Mr. Bera will sit in his place this afternoon. 
Mr. Bera and I will make opening statements and other members 
will be recognized for 1 minute, assuming the timing goes right 
for all of this.
    In many ways, the Burma we see today is much different than 
the one we knew only a few years ago, at least at first glance. 
The sudden and unexpected democratic transition, which opened 
Burma's frontier to the world, was welcomed by democracy 
advocates everywhere. In fact, I traveled to Burma in August of 
last year and saw a number of these changes.
    To be sure, we are all pleased that Nobel Peace Prize 
winner Aung San Suu Kyi is finally free and a duly elected 
member of Parliament. The same can be said of the regime's 
actions to release nearly 30,000 jailed citizens, of which 
1,071 were political prisoners.
    However, as we have seen, the political and social 
situation in Burma is extremely fragile, and there is still 
much work to be done. The escalation of human rights abuses 
committed by the Burmese military and the civil unrest between 
Burma's Buddhist majority and Muslim minority is threatening 
the progression of future political reforms. Regrettably, the 
rise of anti-Muslim violence has so far displaced over 250,000 
individuals, destroyed over 10,000 homes, and killed nearly 300 
people. Evidence shows the Burmese military perpetrated some of 
these attacks directly. In other situations, the military and 
police just stood by and watched the violence unfold.
    What is not often mentioned is that over the last year or 
so, nearly 1,000 Rohingya and 200 Kachin prisoners of 
conscience of have been arrested and detained for their 
religion or ethnicity, or for practicing their right to freedom 
of assembly. This, I think, most would agree, is unacceptable.
    A year ago, President Obama received 11 commitments from 
President Thein Sein, which were reaffirmed in May when he made 
an official visit to the White House. However, those 
commitments remain largely ignored. These unfulfilled promises 
include establishing a U.N. High Commissioner for human rights 
office, allowing international humanitarian access to conflict 
areas, taking decisive action in the Rakhine State to end 
discrimination of the Rohingya Muslims, and ending illicit 
weapons deals with North Korea, among others.
    Despite substantial evidence that reforms are languishing 
behind a corrupt governing system that is still being 
manipulated by the veiled hands of the military, the Obama 
administration has moved forward with offers of more rewards, 
deals, and concessions. Over the last year, the administration 
has lifted investment sanctions; lifted import bans; allowed 
Burma's military to observe COBRA GOLD--the largest military 
exercise in the world; lifted visa bans on top Burmese 
politicians; hosted President Thein Sein at the White House; 
signed a Trade and Investment Framework Agreement; began the 
process of admitting Burma into the Generalized System of 
Preferences program; and initiated military-to-military 
engagement.
    It is, as a result of these actions, that today's hearing 
is being called to examine the administration's decision to 
transition from an ``action-for-action'' engagement strategy to 
one that I believe it labels as ``proactive.'' This contrasts 
with America's longstanding Burma policy that enjoyed support 
on both sides of the aisle. Years of bipartisan cooperation in 
Congress, which resulted in the imposition of widespread 
sanctions on Burma, is now, I am afraid, being overlooked.
    As the administration has raced to turn Burma into its 
success story, I believe its engagement strategy has lost sight 
of the realities on the ground, and has become hasty and I am 
afraid also misguided. I do not believe the administration has 
provided enough time for nascent political reforms in Burma to 
take route. As a result, it is premature to assess whether the 
changes we have seen are genuine because Burma has not yet 
demonstrated it is committed to a long-term path of democratic 
governance. Constitutional revisions that implement reforms at 
the central and local levels have not occurred. So until this 
happens, all the optimism and hope is purely speculation.
    Specifically, I want to focus on the administration's 
unilateral decision to pursue engagement with Burma's military. 
As we have seen elsewhere in the world, unconditioned military 
assistance can lead to unanticipated outcomes. Absent any fixed 
expectations or benchmarks to measure reforms, the U.S. is 
throwing away what may be, since most sanctions have been 
lifted, its last point of leverage that could help foster 
further reforms in Burma.
    In early June, then Secretary Leon Panetta stated that the 
U.S. was interested in improving its military ties with Burma 
if that country continued implementing democratic reforms and 
improved its human rights record. Less than 6 months later, 
reforms have stalled, and the country faces a situation U.S. 
Ambassador Mitchell calls ``two steps forward, one step back,'' 
and human rights abuses continue. Nevertheless, the U.S. is 
still moving forward on a policy fueled by hope.
    The administration's decision to pursue a military-to-
military relationship with Burma ignores and disregards the 
concerns of Burma's ethnic minorities who continue to express 
their opposition. They believe pre-conditions must first be met 
before these relations progress any further. With that in mind, 
I hope today's witnesses will finally detail the 
administration's short- and long-term plans to implement its 
policy, including how military engagement will end the Burmese 
military's perpetration of human rights violations, help Burma 
achieve national reconciliation, reform Burma's Constitution, 
or create an independent judiciary. I hope we can learn how it 
plans to proceed in working with military leaders who have not 
demonstrated a sincere interest in reforms, have not ended 
violations of human rights laws, have not adhered to ceasefire 
agreements, and have not held their own accountable for their 
horrendous crimes. Without such a roadmap, it remains very 
unclear whether future reforms in Burma will be consistent with 
goals established under U.S. laws.
    Lastly, the reopening of the USAID mission in Burma was an 
important step in our engagement strategy because there is a 
critical need for Americans on the ground to assess what is 
actually happening there. At the same time, with all of these 
lingering concerns about Burma's future, it is prudent that 
U.S. assistance is targeting those areas and helping those 
communities in most need. So I hope today's witnesses can also 
provide us with more details about the growing foreign 
assistance budget for Burma, and those areas where additional 
funding has been requested.
    I would also note that we will be welcoming the gentleman 
from New York, Mr. Crowley, and the gentleman from Arizona, Mr. 
Franks, this afternoon. They will be joining us. I ask 
unanimous consent that they be permitted to speak and ask 
questions after members of the subcommittee have done so. 
Without objection, so ordered.
    Mr. Bera is not here yet this afternoon. Mr. Brooks, would 
you like to make an opening statement? Okay. We will go into 
recess here while we go vote. We will be back in a little 
while. We have two votes, so I am guessing it will be 
approximately \1/2\ hour. I apologize for any inconvenience to 
everybody. It is kind of these ``hurry up and wait'' things, 
but votes have been called, so we have to go and do our 
constitutional duty. We will be back shortly.
    We are in recess. Thank you.
    [Recess.]
    Mr. Chabot. The subcommittee will come back to order.
    I have already given my opening statement. I would now like 
to recognize Ami Bera, who is filling in for Mr. Faleomavaega 
this afternoon as the ranking member. We have already 
recognized that Mr. Crowley of New York and Mr. Franks of 
Arizona will be able to speak. If they would like to give an 
opening statement for 1 minute, they have that opportunity as 
well.
    I now recognize Mr. Bera for 5 minutes.
    Mr. Bera. Great. Thank you, Chairman Chabot, and thank you 
for the witnesses on this incredibly important hearing.
    Obviously, as we look to Burma as a country and future 
democratic ally, it is a nation that is at a crossroads, you 
know, emerging from, you know, what certainly has been a 
difficult past and hopefully a future filled with promise. But 
certainly that opportunity is not without challenge, and I 
certainly look forward to hearing your testimony as witnesses 
of how we, as a nation that fosters democracy, advance in that 
challenge.
    The last couple of years the Burmese Government has 
certainly made progress in instituting a number of democratic 
practices and a number of democratic reforms. Certainly, the 
release of political prisoners, the inking of a ceasefire 
agreement, and allowing the opposition to participate in 
Parliament are noteworthy events that occurred in Burma.
    That said, despite this progress, the challenges in 
building a nation that celebrates its rich and ethnic and 
religious diversity remain. You know, a few weeks ago, maybe a 
few months ago, we had a prior hearing on some of the ethnic 
issues and faith-based challenges that are occurring in the 
northern part of Burma, and certainly those challenges remain 
of great concern to most of us on this committee. We certainly 
are concerned about the ongoing violence and human rights 
abuses that we see occurring in Burma.
    Also, as the world's greatest democracy, you know, we have 
to have a role, and I do believe our Burmese engagement policy 
should continue to be committed to seeing national 
reconciliation, transparency, and ethnic equality. We have also 
got to send a very clear message that we will not tolerate 
these human rights abuses and oppression.
    In addition, if military engagement continues with Burma, 
this arrangement must be strategically tailored with firm and 
clear human rights benchmarks aimed to drive the political 
reform that we hope to see. The U.S. needs to remain a strong 
supporter in South Asia and a leader in the global community in 
order to advance the respect and rule of law and human rights.
    I look forward to hearing your positions. I look forward to 
reviewing our positions and policies on Burma, and, you know, 
our role as the world's leading democracy and continuing a 
peaceful transition for the military repression to a country of 
democratic rule.
    Thank you, and I will yield back.
    Mr. Chabot. Thank you very much, Mr. Bera. I appreciate it.
    The gentleman from Arizona, Mr. Franks, is recognized for 1 
minute.
    Mr. Franks. Thank you, Mr. Chairman, and I thank you for 
the opportunity to raise such a critical issue and one here 
where the United States can have a truly serious impact.
    One of the topics of this hearing will be how the 
Department of State and the Department of Defense are reviewing 
military-to-military engagement with the Burmese army or the 
Burmese military. The Burmese military happens to be one of the 
worst oppressors of human rights in recent history, and I urge 
the administration work closely with Congress throughout this 
process.
    The U.S. needs a policy response that is more long-term 
than just lifting military sanctions and setting broad 
objectives for mil-to-mil engagement, especially if we intend 
to be a leader in the region and help Burma become a more 
rights respecting country.
    We must have clear benchmarks for the Burmese military 
before any sanctions on the military are lifted. We know that 
the Burmese military wants the relationship with our military. 
Our actions must incentivize the military to reform. Benchmarks 
should focus on the implementation of constitutional reforms 
that curb the military's control over the civilian government, 
transparency and accountability by the military, and to end 
abuses of ethnic and religious minorities.
    I recently returned from a congressional delegation to the 
Philippines. And among the many things I learned there during 
that trip was how the U.S. can have extensive impact on these 
countries in southeast Asia. The U.S. now has an opportunity to 
make a positive impact in Burma, but we must proceed extremely 
wisely and leverage the relationship we now have with Burma to 
encourage the necessary reforms.
    I thank you, Chairman Chabot, for the opportunity to speak 
today, and for addressing this very vital topic in your 
hearing. And I thank all of you for being here.
    Mr. Chabot. Thank you very much.
    The gentleman from New York, Mr. Crowley, is recognized for 
1 minute to make an opening statement.
    Mr. Crowley. Thank you, Mr. Chairman. I also, if I could--
if you could pause the clock for a moment, I did note that you 
referred to me as Mr. Moakley.
    Mr. Chabot. I apologize.
    Mr. Crowley. If I could be compared to any great Irish-
American, it could be Mr. Moakley. So thank you very much.
    Mr. Chabot. That is what I had in mind.
    Mr. Crowley. I thank you for holding this hearing today, as 
well as my colleagues for being here, particularly Mr. Ami 
Bera, Congressman Bera from California, for his interest, and 
Mr. Faleomavaega from our side as well. Eni Faleomavaega has 
been a great champion of the U.S.-Asia relations for many, many 
years. I am sorry he can't be here today.
    Many of you know that I am the lead sponsor of legislation 
that imposed many of the sanctions on Burma, the Block Burmese 
JADE Act in particular. I worked on this with our then-ranking 
member Tom Lantos, and fully took the responsibility of the 
legislation on after his passing. I also worked very closely 
with Mr. Lantos on the Burmese Freedom and Democracy Act.
    He was someone who was a true champion for human rights 
throughout the world, and Burma was no less a place of interest 
for Mr. Lantos. We miss him.
    As you know, the position of the Special Envoy to Burma, 
the list of individuals targeted for sanctions called the 
Specially Designated Nationals, or SDN list, and many other 
sanctions were created by the JADE Act, which I authored.
    All that being said, I have to be honest, I am increasingly 
concerned about the approach our administration has recently 
begun to take with respect to Burma, especially our apparent 
plans for mil-to-mil relations and the furtherance of them. And 
keep in mind, I am someone who initially supported the 
administration's policy of action for action, but I think we 
are going well beyond that now.
    I am not opposed to talking to the Burmese regime, but I am 
against unilaterally lifting all sanctions and pressures and 
granting much sought after military training, if the situation 
in Burma is stalled or further rolled back.
    I have a more extensive opening statement, Mr. Chairman. I 
won't read all. But, once again, focusing on I think a 
premature stage of moving toward more open relations, mil-to-
mil relations, really from--going from DIILS to EIMET too soon, 
in my opinion. There has not been enough action for action.
    I look forward to hearing from the witnesses, and I welcome 
them today. But I look forward also to the question and answer 
period in which I will be a little bit more direct.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much. And without objection, the 
gentleman's full statement will be entered into the record.
    I would now like to turn to the gentleman from California, 
Mr. Rohrabacher, who is the chairman of the Europe, Eurasia, 
and Emerging Threats Subcommittee.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. If 
there is a message the Government of Burma needs to hear from 
the Congress, it is you are not ready to be accepted into the 
family of free nations yet. You have made progress, but not 
enough, and we expect certain things to be addressed if you are 
indeed to be accepted as a legitimate democratic government, as 
with the other democratic governments in the world.
    The Burmese military is still conducting brutal and bloody 
operations against the ethnic peoples on the Thai-Burma border. 
The Burmese Government is permitting genocidal brutality 
against the Muslim population living in the western part of 
their country. And, again, I might add, Mr. Chairman, if indeed 
the Muslims of the world who are trying to--the moderate 
Muslims who are opposing radical Islam in this world are to 
take the West seriously, we must make sure that we are loud and 
clear when Muslims are being murdered genocidally in countries 
like Burma.
    So we need to step up, and we cannot start treating Burma 
as, I say, a democratic country where their job is done until 
we see some progress, especially in those areas. The Burmans--
one last point, sorry.
    The Burmans were repressed by that horrible government that 
I was proud to have stood with these people for 20 years. They 
stood against this brutal dictatorship, but now what we have--
see emerging is a country in which the Burmans are free but the 
Muslims are not, and the ethnic tribal people are not. That is 
not acceptable to the people of the United States if Burma is 
to be treated like any other democratic country.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    I would also like to recognize the presence this afternoon 
of Congressman Perry from Pennsylvania and I understand that no 
opening statement is necessary. Thank you very much.
    Before I introduce the witnesses, I would also like to 
recognize that we have a number of Burmese parliamentarians 
with us here this afternoon. If they want to stand up and be 
recognized, we would like to welcome you to the Foreign Affairs 
Subcommittee on Asia and the Pacific. If you would like to 
stand, we can recognize you. Thank you for being here. Thank 
you very much. [Applause.]
    I would now like to introduce our distinguished panel here 
this afternoon. We first have Judith Cefkin, who is a career 
member of the Senior Foreign Service. Prior to assuming her 
duties as Senior Burma Advisor, she served as Deputy Chief of 
Mission at the U.S. Embassy in Bangkok, Thailand, from 2010 to 
2013. She previously served as the Ambassador's staff assistant 
and as a political officer. Since entering the Foreign Service 
in 1983, Ms. Cefkin has had overseas postings in Mexico City, 
Paris, and in Manila. She has also served as Deputy Chief of 
Mission at the U.S. Embassy in Sarajevo, Bosnia, and 
Herzegovina; and as a desk officer for Rwanda, Burundi, and the 
Central African Republic; Deputy Director of the Office of 
Western European Affairs; and as Director of the Office of 
Nordic and Baltic Affairs. She received a B.A. in government 
from Smith College, and a master's in international relations 
from the London School of Economics and Political Science. We 
welcome you this afternoon.
    I would also like to welcome Deputy Assistant Secretary 
Vikram Singh. He is the Assistant Secretary of Defense for 
South and Southeast Asia within the Office of the Assistant 
Secretary of Defense for Asian and Pacific Security Affairs. 
Mr. Singh serves as the principal advisor for all policy 
matters pertaining to development and implementation of defense 
strategies for the South Asia, Southeast Asia, and the Pacific. 
Before his appointment in April 2012, Mr. Singh served as 
Senior Advisor to the Undersecretary of Defense for Policy on 
Asian and Pacific Security Affairs. He was the Deputy Special 
Representative for Afghanistan and Pakistan at the Department 
of State. Mr. Singh lived and worked in Sri Lanka, where he ran 
a Ford Foundation program on minority rights and conflict in 
Bangladesh, India, Nepal, Pakistan, and Sri Lanka, and reported 
on the Sri Lankan civil war. He holds degrees from the 
University of California at Berkeley and Columbia University. 
We welcome you here, Mr. Singh.
    Finally, we have Deputy Assistant Administrator Gregory 
Beck, who serves as Deputy Assistant Administrator for Asia. 
His management and oversight responsibility includes all USAID 
programs in East Asia, Southeast Asia, and the Pacific. He has 
over 15 years of senior-level leadership experience in 
development and in conflict and post-conflict environments, 
including in Asia, Africa, and the Balkans, and Caucasus'. He 
was formerly Director of the Office of Humanitarian Assistance 
with CHF International and he held a number of positions with 
the International Rescue Committee, including as Senior 
Regional Director of Asia and Country Director in Somalia, 
Kenya, Rwanda, and Croatia. During Mr. Beck's career with the 
IRC, he led emergency response teams in Somalia, Rwanda, 
Pakistan, Indonesia, and Burma. Mr. Beck has a master's degree 
in environmental engineering from the California State 
University at Humboldt and a bachelor's degree in foreign 
service and international politics from Pennsylvania State 
University. He speaks Nepalese and has studied Thai, Kiswahili, 
Croatian, and Kenya-Rwanda. That is a mouthful. We appreciate 
your presence and we are looking forward to your testimony this 
afternoon.
    Ms. Cefkin, we will turn to you first. We do have the 5-
minute rule in effect here. The yellow light will come on 
letting you know you have 1 minute to wrap up, and then the red 
light will come on. We would appreciate it if you would 
complete your testimony at that time, if at all possible.
    Ms. Cefkin, you are recognized for 5 minutes.

   STATEMENT OF MS. JUDITH CEFKIN, SENIOR ADVISOR FOR BURMA, 
 BUREAU OF EAST ASIA AND THE PACIFIC, U.S. DEPARTMENT OF STATE

    Ms. Cefkin. Chairman Chabot, Ranking Member Bera, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today about U.S. policy toward Burma and 
the important transition that is underway in that country.
    Members of Congress, and particularly those on this 
committee, have been powerful proponents of human rights and 
democracy in Burma over the past two decades. I know that we 
share the goal of supporting reforms that complete Burma's 
transition to become a democratic, peaceful, prosperous member 
of the world community. We tackle this test cheered by the 
advances that have been made, yet cognizant of the substantial 
challenges that remain. Thank you for your past and future 
partnership in supporting Burma's reform progress.
    When then-Assistant Secretary Campbell testified before 
this committee in April 2012, a historic--by election had just 
brought Aung San Suu Kyi and 42 other members of the 
opposition, National League for Democracy, into government, but 
the NLD members had not yet taken their seats in Parliament. 
Today, they are active leaders there.
    Since 2011, the Government of Burma has released over 1,100 
political prisoners. It has substantially eased media 
censorship. Burma has signed the International Atomic Energy 
Additional Protocol and taken steps toward fulfilling its 
obligation to implement U.N. Security Council resolutions 
concerning North Korea. And the government and ethnic armed 
groups have intensified efforts to achieve peace and national 
reconciliation.
    Nearly 4 years after we started down the path of principled 
engagement, the culture of reform in Burma is increasingly 
self-driven, yet Burma's transition remains fragile. The 
lifting of the authoritarian regime's heavy hand has exposed 
long-standing challenges, including a struggle to define 
national identity.
    Communal conflict and anti-Muslim discrimination have been 
unleashed in Rakhine State and across the country. Rule of law, 
including efforts to promote justice and accountability, 
continue to be inadequate, and the military remains closely 
tied to politics and the economy. Power and the benefit of 
Burma's vast natural resources remain concentrated in the hands 
of a few.
    These challenges will be neither quickly nor easily 
remedied. Nevertheless, our surest road to helping Burma comes 
through a strategy of engagement that seeks to assist the 
country proactively in its transition to democracy and 
development. This is a unique opportunity in modern Burmese 
history. The people, the country, are calling for enhanced U.S. 
engagement in virtually all sectors, and we must work 
tirelessly to ensure that the reforms become irreversible.
    I would like to briefly touch on four key pillars of U.S. 
policy. The first is promoting national peace and 
reconciliation. This is Burma's defining challenge, a challenge 
that has eluded the country since its independence. Without 
peace and national unity, other reforms will be at risk. To 
support the peace process, our Ambassador, Derek Mitchell, and 
his Embassy team meet regularly with the government and with 
ethnic representatives of all ethnic groups to encourage an 
inclusive, transparent peace process. We are supporting efforts 
to rebuild trust, and we continue to urge all parties to 
respect the human rights of civilian populations.
    To counter the disturbing communal violence and anti-Muslim 
discrimination that has racked Burma, particularly in Rahkine 
State we are promoting messages of tolerance, and we continue 
to urge the government to improve security for all vulnerable 
populations and to ensure unimpeded humanitarian access to 
conflict areas.
    In addition, we are urging efforts to reintegrate 
communities, and we are pressing the government to implement a 
path to citizenship for the Rohingya.
    Turning to a related area of focus, supporting democracy 
and human rights remains a critical pillar of our policy. We 
continue to press for the release of all political prisoners 
and to advocate for the opening of a U.N. Office of Human 
Rights. We are implementing programs to strengthen civil 
society and build a democratic institution. We are also 
encouraging the revision of laws necessary to protect 
democratic rights.
    The need for constitutional reform to allow citizens to 
freely elect the leaders of their choice, to recognize the 
rights of minorities, and to establish civilian control of the 
military is part of this discussion. And this leads me to 
mention the importance we attach to promoting security sector 
reform.
    A military under civilian control that protects the people, 
promotes human rights, and respects international law is a 
pillar of democracy and essential to the success of the 
reforms. Our voice must be heard on this critical issue.
    We believe that a carefully calibrated military engagement 
to share lessons of how militaries operate in a democratic 
framework will strengthen the hand of reformers and is one of 
the best tools for shaping Burma's most powerful institutions 
at this juncture.
    My colleague, Vikram Singh, will elaborate on this, 
including the benefit Title 22 authorities would offer to 
provide Burmese military more consistent and structured 
exposure to international human rights and military justice 
standards.
    Let me just briefly touch on two other policy areas. one is 
supporting----
    Mr. Chabot. If you could wrap up, because you are actually 
over time now.
    Ms. Cefkin. Okay. Supporting Burma's transition to a 
transparent open market economy that promotes sustainable 
growth, and the last is also to highlight--I would highlight 
Burma. We want Burma to be a contributor to regional and global 
security.
    And just to say that our continued engagement to effect 
positive change in Burma is grounded in our strategic interest 
and a successful politically, economically progressive Asia 
Pacific region, and in the fundamental values that go to the 
core of who we are as a nation.
    So to prevail and keep our focus on long-term goals, we 
feel that we must have a strategic approach that is steady and 
considered, but flexible in implementation, to keep pace with 
conditions on the ground.
    Mr. Chairman, I look forward to continued consultation and 
cooperation with you on these important issues. And I want to 
thank you again for inviting me to testify today, and I will 
look forward to answering your questions.
    [The prepared statement of Ms. Cefkin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Singh, you are recognized for 5 minutes.

STATEMENT OF MR. VIKRAM J. SINGH, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR SOUTH AND SOUTHEAST ASIA, OFFICE OF THE ASSISTANT 
 SECRETARY OF DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Singh. Thank you, Mr. Chairman, members of the 
subcommittee. I really want to thank you for inviting me to 
speak with you today about our engagement with Burma. And I 
will be summarizing my comments in an effort to stay under 5 
minutes.
    Congress has been instrumental in shaping U.S. policy with 
Burma, and the Department of Defense views Congress as a 
critical partner in developing and implementing a strategy for 
careful, calibrated reengagement with the military in Burma. 
The military in Burma remains critical to the ultimate success 
of reform efforts and a full transition to democracy.
    We believe the Burmese military is positioned to continue 
supporting the government's reform program and is interested in 
taking steps to modernize, professionalize, and reform itself. 
At the same time, we are fully cognizant the military in Burma 
retains a prominent role in political and economic life, faces 
allegations of ongoing human rights abuses, and retains ties to 
North Korea. It is very clear that a meaningful and sustainable 
transition for this country and for its military will take many 
years.
    Given this complex reality of the military's role in Burma, 
our policy supports two clear goals. First, encouraging the 
military to continue its support for reforms; and, second, 
enhancing the military's understanding of and ability to 
respect human rights and civilian authority and control.
    The Department of State has worked closely with--the 
Department of Defense has worked closely with the Department of 
State to develop a limited and calibrated set of engagements 
with the Burmese military in support of these goals. The steps 
we are taking are in line with the recommendations of a range 
of Burmese stakeholders, including members of the opposition 
and ethnic groups, who urge us to carefully engage the Armed 
Forces to build their support for the reform agenda and to help 
the military itself modernize and transform.
    So far, DoD's only interactions in the last 2 years have 
been limited diplomatic engagement, including, through the 
U.S.-Burma human rights dialogue, and pull-asides with Burmese 
counterparts at multilateral meetings. The resumption of 
accounting operations for U.S. personnel missing from World War 
II and unaccounted for in Burma.
    Workshops and exchanges by the Asia-Pacific Center for 
Security Studies on rule of law, civil-military relations, and 
civilian control of the military. Supporting Thailand's request 
to have Burmese observers at COBRA GOLD to observe just the 
staff planning and humanitarian portions of that exercise. 
Initial exchanges by the Defense Institute of International 
Legal Studies to share views on human rights law and the law of 
armed conflict.
    These interactions have been largely symbolic. They have 
not included any training or education. Under current 
restrictions, we cannot undertake training or education 
programs, such as DIILS courses on human rights and 
international humanitarian law. But our limited engagements we 
feel have begun to expose the military to international norms 
and behavior and to foster some new trust and understanding.
    Mr. Chairman, and members of the subcommittee, the 
Department does not seek and is not recommending the full 
normalization of bilateral defense ties with Burma at this 
time. We are not suggesting the resumption of foreign military 
financing or full international military education and 
training, otherwise known as IMET.
    Barring significant further progress, the engagement we 
seek will be limited and calibrated. Over the next year, we 
hope to continue the existing activities we have started and to 
expand DIILS's engagement, to include some formal training in 
human rights and other related areas for Burmese military 
officials.
    We see value in engagement that would support institutional 
changes required to promote better civil military relations, 
increased transparency, and greater civilian oversight. We also 
recommend initiating steps to build Burma's capacity for 
disaster relief, to deal with things like Cyclone Nargis in 
2008.
    The Department looks forward to working with Congress to 
craft these engagements appropriately. All engagements we will 
do will fully adhere to relevant sanctions, policy 
restrictions, and vetting requirements. It is important to note 
that under current sanctions we lack any dedicated mechanism 
for this kind of reform-oriented engagement with the Burmese 
military.
    The main tool for this kind of process is expanded IMET, 
which is a scaled and targeted subset of IMET that allows only 
education and training related to civilian control of the 
military, improving military justice in accordance with 
internationally recognized human rights, proper management of 
defense resources, and cooperation between the police and 
military for counternarcotics.
    We look forward to working with Congress on some version of 
this kind of programming, so reform-focused engagement can be 
more transparent and regularized.
    I know I am coming to the end of my time, Mr. Chairman. You 
mentioned examples of benchmarks we would want to see. Those 
are many of the same things that the administration looks for, 
humanitarian international--access for international 
humanitarian organizations, accountability in the Burmese 
military.
    And given that I am coming to the end of my time, I also 
just want to acknowledge that I recognize there is considerable 
skepticism about what value this kind of military engagement 
might provide. We believe that this kind of engagement is part 
of our principled stance with regard to reform and supporting 
democracy and reform in Burma, and we know there can be no 
guarantee that our engagement will bring about the changes we 
seek.
    But we do believe we have an opportunity to engage for the 
first time in decades with a military and government in Burma 
open to implementing reforms and accepting U.S. advice to that 
end. We believe we need to move forward with that opportunity 
in a careful way, in close consultation with the Congress and 
our friends and allies who share these objectives.
    Thank you, Mr. Chairman. I look forward to taking questions 
from you and the subcommittee.
    [The prepared statement of Mr. Singh follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Singh.
    Mr. Beck, you are recognizing for 5 minutes.

STATEMENT OF MR. GREGORY BECK, DEPUTY ASSISTANT ADMINISTRATOR, 
   BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Beck. Mr. Chairman, Ranking Member Bera, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on USAID's work in Burma.
    I would like to first acknowledge the role that this 
committee and Congress have played in our engagement and our 
advocacy of human rights, democracy, national reconciliation, 
and economic reform. We believe the recent historic reforms can 
be sustained with continued targeted efforts that support the 
needs and aspirations of the people of Burma. However, we 
remain conscious of the fragile state of reforms and 
reconciliation taking place in the country.
    Since the reopening of USAID's mission over a year ago, and 
under the strong leadership of Ambassador Mitchell, USAID's 
activities have been focused on supporting the U.S. 
Government's priority policy objectives in Burma. Specifically, 
they reinforce the four principles outlined in the U.S.-Burma 
Partnership for Democracy, Peace, and Prosperity, the 
principles of inclusivity, transparency, accountability, and 
local empowerment.
    In the spirit of these principles, we are targeting our 
programming toward four key areas at this critical juncture in 
Burma's transition--democratic reform, national peace and 
reconciliation, economic reforms toward inclusive growth, and 
building healthy and resilient communities.
    In partnership with the people of Burma, we are helping to 
build a foundation for a peaceful and sustained transition to 
democracy. Our assistance supports strengthening Burma's 
nascent democratic and political processes and institutions by 
promoting free and fair elections, supporting political party 
development, building the capacity of Parliament, and providing 
broad assistance to civil society.
    As an example, a USAID program brought civil society and 
Parliament together for the first time to draft national 
legislation. The result of this historic collaboration was a 
new association law that is more in line with international 
standards and gives a greater voice and strength to civil 
society. This process was hailed by both civil society and 
members of Parliament as a model for the future.
    Through direct engagement with the people, USAID is 
ensuring that Burma adopts legitimate and sustainable processes 
that enable the pursuit of national reconciliation. For 
instance, our Project for Local Empowerment is working in 
conflict-prone regions of Burma to create linkages between 
local border groups, communities, and government officials that 
promote trust and cooperation.
    We have partnered with over 100 local organizations from 
human rights groups to humanitarian assistance providers to 
help them carry out their vision for Burma.
    Looking forward, the continued development of the Burmese 
economy requires responsible foreign and domestic investments. 
Reforms to the country's legal system are needed to encourage 
investment that benefits the lives of the people of Burma, 
protects their environment, and encourages a transparent land 
tenure system.
    Towards these goals, we have assumed leadership of the 
donor coordination mechanism for agriculture, contributed 
significant input into the recently approved Farmer Rights 
Protection Act, and provided technical expertise on the 
developing land use policies.
    We have also forged milestone public-private partnerships 
between American universities and companies, such as Cisco, 
Microsoft, and Hewlett-Packard, and provide leadership 
training, promote and encourage entrepreneurship, and assist 
small- to medium-sized businesses.
    But for all of our gains to take root, a healthy, resilient 
population is necessary for sustained economic growth. Over the 
past few years, USAID has become a leader in the health sector 
in Burma, making significant contributions toward combatting 
child and maternal mortality, HIV/AIDS, malaria, and drug-
resistant tuberculosis. By focusing in these areas, we are 
reaching people who were previously unable to access basic 
health care.
    Beyond this, our multi-sector Shae Thot program works in 
over 1,000 villages, bringing clean drinking water to over 
300,000 people. Additionally, over 38,000 people have improved 
access to health care, 12,000 farmers are using improved 
agriculture technologies, and over 6,000 community-based 
organizations and women's groups have received U.S. Government 
assistance to strengthen their ability to support their 
communities and to better engage with their governments.
    Mr. Chairman, and members of the subcommittee, the USAID 
mission in Burma is well on its way to establishing a model 
mission that maximizes our investment by embracing partnerships 
and alliances in all that we do. Whether it be with the private 
sector, international organizations, academia, local groups, or 
civil society, the relationships and partnerships we forge will 
provide a catalytic platform for continued engagement to 
improve the lives of the people that live in Burma, and ensure 
a safer, more prosperous future for all.
    I appreciate the opportunity to appear before you today, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Beck follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much. We appreciate the 
testimony of the panel this afternoon and I will recognize 
myself for 5 minutes for the purpose of asking questions.
    Last week, Aung San Suu Kyi gave a speech during her trip 
to Australia where she said,

        ``Those of you who think that Burma has successfully 
        taken the path to reform would be mistaken. If you want 
        to know why you are mistaken, you only have to study 
        the Burmese Constitution. If you read it carefully, you 
        will understand why we can't have genuine democracy 
        under such a Constitution.''

    Burma's Constitution has many severe flaws--no civilian 
control of the military, no independence of the judiciary, no 
protections and rights for minorities, 25 percent of the seats 
in Parliament are reserved for the military, and it bars Aung 
San Suu Kyi and others from becoming President. What is the 
administration doing to support the universal call for Aung San 
Suu Kyi and the people of Burma to advance constitutional 
reform before the 2015 elections? Ms. Cefkin, if you would like 
to take that.
    Ms. Cefkin. Certainly. We very much agree with the priority 
you attach to that issue. And, first of all, you may be aware 
that there is a process underway in the country. The Parliament 
has established a committee to review the current Constitution 
and to make recommendations as to changes/amendments that 
should be considered.
    As you know, constitutional amendments can be a very 
challenging process in a number of countries, and in Burma it 
is no exception. It will require--first of all, changes will 
require a vote of 75 percent of the members of Parliament, and 
then many of the issues, probably most of the issues, will have 
to go national referendum.
    We are engaged in the discussion, and we have made very 
clear our expectation that this has to be a priority, that 
Burma will not realize its full democratic potential until the 
Constitution is reformed. And the same issues you cited are 
issues that we regularly cite, the fact that it is absolutely 
critical, it will be critical that for the upcoming elections 
to be seen as credible that the country--the people of Burma 
are able to freely choose their leadership in free and fair 
elections.
    Of course, it is up to the people of Burma to choose their 
leadership, but they should have the right to choose their 
leadership, the candidates that they feel best represent them. 
There are a number of other issues that are equally important, 
and a key one is the rights of minorities. That will be part of 
the discussion that we hope will be launched very soon as part 
of the political dialogue for a durable peace.
    So that--of course there will be many aspects to that that, 
you know, will take time to determine what changes need to be 
made, but that is also a priority. And, as you mentioned, the 
civilian control of the military is another priority.
    So we, you know, have made clear our position, our 
expectations, our hopes for the country, and we are certainly 
willing to provide them technical assistance, if it is helpful 
to them as they undergo this very important challenge.
    Mr. Chabot. Let me also ask, what are the implications of 
statements from the administration saying whatever reforms 
Burma achieves by the end of this year are the only reforms we 
are likely to see in Burma until the 2015 elections, because 
its government will be so focused on chairing ASEAN next year. 
Is the administration really willing to accept such lack of 
progress?
    Ms. Cefkin. No, not at all. That is not anything that we 
would subscribe to. We do recognize there will be challenges, 
that the government is very focused increasingly on its ASEAN 
responsibilities, but that does not mean we will in any way 
flag in our--continuing our dialogue and our encouragement and 
pressure to them to move forward on the reforms.
    Mr. Chabot. All right. Thank you.
    Mr. Singh, I have only about a minute, so let me get 
quickly to a question. According to the U.S. State Department's 
2011 report to Congress on military and intelligence aid to 
Burma, Burma's primary foreign suppliers of weapons and 
military-related technologies were state-controlled arms 
companies from China, North Korea, Russia, and Belarus. There 
is little doubt North Korean companies are still supporting 
Burma's efforts to build and operate military-related 
production facilities. Although Burma signed the IAEA 
additional protocol on September 17, 2013, there is still no 
clear evidence that Burma has halted its military relationship 
with North Korea. A relationship between Burma and North Korea 
has been, and continues to be, entirely unacceptable. Does 
Burma intend to completely sever ties with North Korea or not?
    Mr. Singh. Thank you, Mr. Chairman. The Burmese Government 
has decided to end the military relationship with North Korea. 
We believe that is the direction they are going. We do not 
believe that that is complete, and I would be very happy to 
discuss in more detail what we think to be true about this in a 
classified setting.
    We see of primary importance to us and actually many of our 
allies and partners the full severing of Burma's ties to the 
DPRK as really critical to advancing beyond anything other than 
this initial reengagement we have been talking about.
    Mr. Chabot. I would certainly agree that is critical. My 
time has expired.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. All right. Thank you, Chairman Chabot.
    Let me direct my first question to Mr. Singh. Obviously, 
Burma sits at a very critical juncture between China--between 
an emerging relationship with India and offers some critical 
access to trade routes, and so forth. But from a military 
perspective, it certainly sits at a critical juncture.
    It does look like India is increasing some of its military 
sales to Burma, as well as, you know, offering assistance, and 
so forth, at a similar time that China obviously is providing a 
lot as well. How do you see this playing out in terms of vis-a-
vis some of the relationships between India and China as well? 
Just from your perspective. And then the U.S.'s role.
    Mr. Singh. Thank you, Congressman Bera. I think I should--I 
need to just very briefly say hello to you from my mother-in-
law and father-in-law, who are your constituents----
    Mr. Bera. Great. Thank you.
    Mr. Singh [continuing]. In California, Dr. and Mrs. Baumer.
    We really welcome the engagement of India with Burma. You 
know, India and the United States have long had very similar 
aspirations and goals for Burma, though we have often had very 
different policy approaches to it. We believe that overall 
India's reengagement with Burma on a whole host of issues will 
be positive.
    I would say that we will probably have disagreements about 
specifics about what that looks like, so, for example, moves 
into arms sales and other things will be things that we might 
be concerned about. That said, I think it is incredibly 
important for Burma to start interacting with militaries other 
than those that have been their traditional partners and 
suppliers, and with governments that have been other than their 
traditional partners.
    So we welcome that development. We believe China will try 
to maintain a relationship with Burma, and Burma is finding 
itself having for the first time in many years to actually 
figure out where it wants to place its bets, where it wants to 
put its cards, who it wants to deal with. We would like to 
shape the kinds of choices that Burma makes through how we go 
through this delicate process of reengagement with supporting 
reform at the center of what we--of how we approach things.
    Mr. Bera. Great.
    Let me ask, Ms. Cefkin, with elections coming up--and the 
chairman touched on what--you know, how we shape free and fair 
elections--what would you define in 2015 as being a fair 
election in Burma, if we were to look for some standards that 
we would want to shoot for?
    Ms. Cefkin. Yes. And let me also mention, and my colleague 
Greg Beck may want to elaborate, but part of our assistance 
actually is also working with the Election Commission in Burma 
to help approve its efficiency and ability to monitor and to 
help implement free and fair elections.
    We would want to see the ability of all Burmese citizens, 
obviously, to go to the polls, to register, to vote freely, 
and, evidence that there is, no fraud or very limited fraud in 
the conduct of elections, that the campaign was conducted in a 
free and transparent manner, absent intimidation, that 
candidates are able to access areas that they represent, and 
that the citizens of the areas they represent are able to get 
to the polls.
    I think, you know, a lot will depend of course on what 
changes they decide to advance as far as there has been 
discussion in the country, do they want to keep the current 
electoral system, or do they want to go to a proportional 
system? You know, those kinds of issues are issues for the 
people to decide. But in accordance with whatever system they 
do choose, ultimately that everybody is freely allowed to 
participate.
    That is a very broad, general answer to your question.
    Mr. Bera. Okay. Mr. Beck?
    Mr. Beck. I might add that we do have as part of our rule 
of law project, we are working with the Union Election 
Commission, helping to enhance their systems and processes, 
also to enhance to polling stations, working with civil society 
to build out on voter education, and also to work as monitors 
during the elections.
    Mr. Bera. Right. In my last 30 seconds, one thing we have 
talked about on this committee and in the full committee has 
been one of the core pillars of democracy is within the rule of 
law property right clause. Could you just briefly touch on, you 
know, any one of you, what property rights in Burma look like 
today?
    Ms. Cefkin. That is actually a problem, and a problem that 
needs to be addressed. We do know that there are senior 
officials in the government that are grappling with it. My 
understanding is currently there are not really clear property 
rights in the country, and the problem of land seizures, land 
grabs, is a big problem.
    But we have heard, and certainly this will very much be 
tied to our development work in agriculture, that there needs 
to be clarity and there needs to be reform to provide for clear 
land rights.
    Mr. Bera. Great. Thank you.
    Mr. Chabot. The gentleman's time has expired. I would just 
note that the witnesses can definitely score points with the 
panels if they can send greetings from their parents. That 
definitely is a good move.
    The gentleman from Pennsylvania, Mr. Perry, is recognized 
for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. I am particularly 
concerned or interested in the U.S. policy toward Burma. Some 
of the things I understand it seems like we are relaxing policy 
a little bit as a way of I guess turning the page. And I see 
where, at least as it describes in the document that I am 
looking at, you know, democratically elected civilian 
government, human rights, and those type of things, especially 
to ethnic minorities, but it doesn't mention our policy 
regarding nuclear ambitions.
    And if you could, Ms.--I am sorry, Ms. Cefkin, if you can 
elaborate on that, I would appreciate it.
    Ms. Cefkin. Well, that is--very much remains a very key 
policy priority area for us. As my colleague Vikram Singh said, 
we have seen positive steps that have been taken by the 
government to cut off the trade, the arms trade, with North 
Korea. But we have not yet--we cannot yet say that that has 
been completely implemented.
    As far as nuclear goes, I think at this point we could 
certainly, you know, arrange to come back in another setting to 
discuss in more detail. But the nuclear bit is less the concern 
than other systems I think at this point.
    Mr. Perry. Okay. So do we have--is their relationship with 
North Korea, is that a showstopper for the United States?
    Ms. Cefkin. Well, first of all, it is part of their 
international obligation to adhere to U.N. Security Council 
resolutions. So----
    Mr. Perry. But we have seen those kind of things erode in 
the past in other negotiations with other nations where we say 
``no further than this, unless you want to talk about it.'' 
So----
    Ms. Cefkin. Right.
    Mr. Perry [continuing]. What is our position?
    Ms. Cefkin. Certainly, there are many things that we will 
not be able to do to engage them on absent their full 
compliance on that issue. And on the issue of military, that is 
very much true, that we cannot foresee a full normalization 
absent their having fully complied on that need.
    Mr. Perry. Okay. So under human rights abuses, particularly 
with the ethnic minorities, the Christians, the Muslims, et 
cetera, and the military involvement in that, while I 
understand the increased dialogue, so to speak, as opposed to--
you know, the stick as opposed to the carrot, so to speak--I 
mean, do we trust these folks enough to do that under dialogue 
as opposed to the boot? I hate to put it that way, but, you 
know. And do we have quantitative benchmarks, including a 
timeline, for their compliance with any of those things?
    Ms. Cefkin. Let me start to answer, and I will turn to 
Vikram perhaps to add a bit more. I guess one thing to keep in 
mind is that they have been very, very isolated. They have not 
had exposure to Western ways of thinking of operating. So we do 
think that their exposure to our military, to see firsthand and 
to be offered that alternative vision for how militaries 
operate in a democratic framework will--has the potential to 
help move them away from their current patterns of behavior.
    We can't be absolutely sure that it will succeed. But if we 
don't try, we can be quite sure that it won't succeed. So we do 
have obviously a number of changes that we are looking for from 
them before we would be able to move forward, and these 
include, obviously, respect for human rights, setting up 
systems such as ombudsman, inspector generals, mechanisms that 
would allow to address human rights when they do take place.
    We obviously need them to be in support of the reform 
process, in support of the peace process, to stop use of child 
soldiers, to--we have talked about North Korea, stop dealings 
with North Korea, and to develop more transparent systems, 
budgeting, personnel, and the big difficult issues, tackle the 
big difficult issues of their role in politics and the economy.
    There are a number of issues out there. We do feel that 
certain issues may be easier to tackle than others, and we do 
want to retain some flexibility going forward as how we sort of 
leverage, you know, our requests and what we are able to 
provide in exchange.
    Mr. Perry. Okay. Thank you. I see my time is about to 
expire. I am interested in pursuing a further discussion on the 
previous questions under the appropriate setting.
    Mr. Chairman, thank you. I yield back.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired.
    The gentleman from New York, Mr. Crowley, is recognized for 
5 minutes.
    Mr. Crowley. Thank you, Mr. Chairman. I also want to 
express I feel--it is a homecoming for me. I served for 12 
years on this committee, and I am getting my legs back. It is 
great to be back here. Thanks again to all of you for 
participating today.
    As you can tell by my opening statement, I am a bit 
skeptical about the advances that have been made, both on the 
ground in Burma and our interaction with the junta, the Burmese 
regime.
    Mr. Singh, particularly, do you have plans to proceed to 
full IMET? I ask this because originally the State Department 
told us that our involvement would be limited to the DIILS 
program before it proceeded to IMET. Now, however, I believe 
you are seeking EIMET funding, which subsequently could change. 
I can only assume you will be quickly changing to full IMET 
request. Is that correct? And under what conditions would you 
consider IMET training?
    Mr. Singh. Thank you, Congressman. We are not seeking full 
IMET, and we would not seek full IMET. I will----
    Mr. Crowley. Are you seeking EIMET?
    Mr. Singh. I will defer to my State Department colleagues--
this is a Title 22 authority, not a Title 10 authority, for 
specific details. But EIMET exists simply as a subset of IMET, 
but some form of IMET authorization is required to have EIMET 
or anything--you know, anything like that.
    What I would like--what I believe is necessary is the 
ability to engage in some limited amounts of training and 
education narrowly targeted that are things that are like what 
we have in other settings used EIMET for. We are not 
particularly determined to pursue one specific way of doing 
that. What we would like to do is work with Congress on what 
the most--you know, most appropriate way would be to ensure 
that we have clear authority, and that there is transparency, 
and that there is accountability.
    And so that would be one way that that has been--that we 
have done these sorts of activities, limited scope activities 
in the past. I would like to assure you that we do not see any 
danger. There is no one in this administration that is 
interested in moving down some slippery slope toward fully 
resuming IMET FMF and fully normalizing ties.
    Constitutional reform is out there, elections are out 
there. There are years between here and there, but we----
    Mr. Crowley. Well, I appreciate that.
    Mr. Singh [continuing]. Do need to have an ability to 
engage and talk and help a path.
    Mr. Crowley. Thank you. Appreciate it. The time is very 
sensitive. Given the seriousness of the human rights situation 
in Burma, have you developed genuine benchmarks beyond broad 
ideas which we are talking about? We are talking about the 
broad idea of the Constitution.
    I know that this a workable Constitution for nascent 
democracy. You are being very generous, Mr. Beck. I appreciate 
that. It is very nascent. Can you tell me what--if there are 
benchmarks, what they are? I ask this because the training of 
the Burmese military, even if it is on a limited basis, is a 
huge win public relations-wise for the Burmese military and for 
the junta.
    Mr. Singh. Thank you again, Congressman. I agree with you 
that there is a--you know, this is--it is complicated to do 
this kind of reengagement, and you don't want to inadvertently 
send the wrong kind of signals.
    We believe that the kind of progress we are looking for 
would be through--to be more specific than these general terms, 
you know, full, open, regular, humanitarian access for U.N. and 
other non-governmental organizations to vulnerable populations 
in conflicts area, transparency into military command 
structures and operations and how they work, some kind of 
independent internal review mechanism for accountability and 
military justice, so, you know, like an ombudsman, like what--
we use inspectors general, those kinds of--something along 
those lines.
    Process to meet the commitment where they have made some 
progress--they have made progress, but process--progress 
meeting the commitment to end the use of child soldiers, an 
enduring commitment to the peace process. What we don't have is 
sort of we do specifically this and then we expect specifically 
that. What we are doing is trying to have a very calibrated set 
of initial engagements, be able to talk about these things, and 
then be able to evaluate in a--you know, in a robust way what 
process has been made and whether additional steps should be 
taken.
    Mr. Crowley. Mr. Chairman, I appreciate the earnestness of 
Mr. Singh and all giving testimony today. I have many, many 
more questions. My time is running out. I personally don't 
believe that the Burmese military needs to be trained to stop 
killing and raping and stealing lands from people within their 
own country.
    I do hope that if anything comes from the intersection of 
both our military and theirs is that they do stop those things, 
because that is what is happening in that country today, 
particularly in the Kachin region and, as was laid out earlier 
by my colleagues, in the Muslim states as well. Some outrageous 
and terrible and horrible things are taking place in our 
country.
    I have visited Burma, and I have a profound respect for the 
people in the country, certainly for Daw Aung San Suu Kyi and 
those who every day sacrifice so much to bring democracy to the 
country. But I am concerned that our mil to mil is moving too 
quickly, because they feed off of this prestige. And I want us 
to not only visually but also in reality slow this down. I 
think it is important to get the reforms that we want, 
democratic reforms, constitutional reforms, to allow Daw Suu 
Kyi and others to run for office, because the Constitution will 
not be changed if left to the military device.
    They control 25 percent of the Parliament. They are in 
control of the constitutional changes, not the people of Burma.
    So, Mr. Chairman, thank you for this opportunity.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
get straight where we are at, then, with Burma. Are we planning 
to have a relationship with the Burmese military in which we 
are providing them with certain weapons systems? No weapons?
    Mr. Singh. No.
    Mr. Rohrabacher. What are we going to be providing them? We 
want to have transparency, we want to be--accountability and 
everything. Are we going to give them anything in exchange for 
this reform?
    Mr. Singh. Congressman, all we are talking about at this 
point would be continuing the initial engagements which have 
been conversations about things like civilian control of the 
military and the importance of that for a modern military, the 
rule of law, accountability, how we approach these things and 
how they approach these things----
    Mr. Rohrabacher. So we are asking----
    Mr. Singh [continuing]. We would be looking to move into--
--
    Mr. Rohrabacher. We are asking them good conversation.
    Mr. Singh. Well, that is all we can do right now, sir, is 
have conversation. We are not able to even do training. What we 
would like to be able to do is actually do some training where 
our experts, like Captain Sanders here, who is the Director of 
the Defense Institute for International Legal Studies and is 
sitting behind me, where they could offer training, how does a 
modern military deal with something like----
    Mr. Rohrabacher. So is there anyone--any of you three that 
are suggesting that the Burmese military is not now conducting 
operations against the ethnic tribal people? Have they ceased? 
Are you trying to tell us that they have ceased in these 
operations?
    Ms. Cefkin. Congressman, if I may, no, we would not--we 
would not dispute what you are saying.
    Mr. Rohrabacher. All right.
    Ms. Cefkin. But just to underscore the point that we are 
not talking about anything that in any way enhances their 
tactical warfighting ability.
    Mr. Rohrabacher. Well, that is good. I am glad to hear 
that, because that is being more--that is being realistic. I 
don't think good conversation accounts for anything, 
especially--in fact, good conversation with people who are in 
the process of conducting military operations that cause a 
great number of innocent civilians to die among the tribal 
populations, good conversation with those people might be seen 
as a sign of weakness and not of strength.
    Again, we should recognize that there has been progress. It 
seems to me that we are talking about only progress among the 
Burman population. And let us remember, Aung San Suu Kyi's 
father was the President, was he not, and he was murdered by, 
what, his guards--correct me if I am wrong--when he demanded--
when he led the effort to make sure that the Karens, and the 
Karenees, and the Shan, and the rest of those tribal people 
weren't going to be able to run their own schools in their own 
language.
    I mean, it seems to me--I hope that we can--and I would--I 
am sorry that our friends from the Parliament had to leave--
there won't be--there will not be peace in Burma, for the 
Burmans or anyone else, until compromises are reached with 
living with those tribal people, and this is a 1,000-year-old 
situation.
    I am glad to see that our administration is dedicated to 
playing a positive role. Even conversation with a great 
emphasis is a positive role, as long as we don't ignore those 
violations that are going on.
    About Korea, however, I am not quite understanding--they 
have not ceased their relationship with North Korea?
    Mr. Singh. We believe they have taken steps, but we 
believe--to end the military-to-military ties. They have a lot 
of contracts and supplies from North Korea that have been--that 
they have had over the years. We believe they have decided to 
end that, but we do not believe they have completed severing 
that entirely. So----
    Mr. Rohrabacher. Okay. So----
    Mr. Singh [continuing]. And we are watching closely, and we 
are very happy to discuss this in a classified setting.
    Mr. Rohrabacher. All right. They have given us some good 
conversation on how they are changing their conversation with 
Korea. Of course, maybe their relationship with North Korea 
goes beyond conversation, which what we are really concerned 
about.
    Well, has there been any--would you--Burma used to be 
infamous--I have got 30 seconds left--infamous for the drug 
trade that was coming out of some of the tribal areas in fact, 
as we know. Has there been any progress in that front?
    Ms. Cefkin. That is still a very big problem. They are 
still the world's second largest producer of opium poppy. I was 
in Burma at the beginning of November. I went to Karen State. I 
heard there some really very disturbing reports about the 
incidence of drug use among use, methamphetamines coming from 
the north. So it is a big problem.
    We would like--we have done some limited counternarcotics 
work with the Burmese. We are helping to finance an opium yield 
survey, and we would like to expand that.
    Mr. Rohrabacher. All right. Well, the second most heroin-
producing state is Burma, and I guess the most drug-producing 
would be Afghanistan. And I guess we have very little influence 
over there, don't we?
    Thank you.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from the Commonwealth of Virginia, Mr. 
Connolly, is recognized for 5 minutes.
    Mr. Connolly. I thank the chair, and welcome to our panel. 
Forgive me, I am running back and forth, but we have two 
subcommittee hearings at the same time. I belong to two 
committees. I believe no human problem or endeavor cannot 
substantially be improved with another hearing.
    Can you talk just a little bit, Mr. Singh, and maybe Ms. 
Cefkin, about the nature of what seems to be the spreading 
violence between Buddhists and Muslims in Burma. What is the 
source of it?
    Ms. Cefkin. Yes, Congressman, it is a historical problem. 
It has existed--there is based on deep-seated prejudices. There 
have been waves of violence throughout history in the country, 
and these latest outbreaks in the past year have been very 
disturbing.
    We very much see this as rooted in popular suspicion and 
prejudices. And we think with the greater openings some of the 
authoritarian structures that were in place before were bad, 
but one thing they did do is tamp down some of these sorts of 
incidents. And now I think there is--people are searching for 
what their identity is, and unfortunately it has given rise to 
bigotry, you know, among certain segments of the population.
    But that I don't think represents Burma. I think that there 
are voices for moderation there, but they have not been 
sufficiently heard. One thing we are doing is working with 
civil society to help them--give them more voice to speak up to 
counter this very xenophobic rhetoric, and we are working very 
closely with international humanitarian organizations to 
address the immediate humanitarian needs.
    We are working to try to build trust and confidence-
building measures between the communities. And with regard to 
Rakhine State and the plight of the Rohingya specifically, we 
are pressing the government to move forward expeditiously to 
create a path to citizenship because we think that once that is 
established it will take away some of the underlying root cause 
that has given rise to the vulnerability of that group of 
population.
    Mr. Connolly. I am glad you brought up the Rohingya, 
because Aung Sun Suu Kyi's spokesperson recently said that she 
had little interest in supporting the Rohingya's claims for 
rights and citizenship. That seems a surprising statement from 
a Nobel Laureate who was, and is, remains a real symbol of--you 
know, for democracy and freedom in Burma.
    Can you elaborate on our read of that statement?
    Ms. Cefkin. Congressman, I think it does go back to the 
point I made about there being deep-seated society suspicions 
and lack of fully embracing the diversity of the country and 
the strength that that diversity can bring.
    And I think, you know, obviously in our conversations with 
all leaders, both in the government and the opposition, you 
know, we do urge them to speak up in defense of those rights, 
those human rights.
    Mr. Connolly. The New York Times recently had a story about 
a Buddhist monk, Ashin Wirathu, and the 969 Movement. And is it 
our view that the rather inflammatory sermons this Buddhist 
monk is recording and sharing are in fact incitement for more 
violence against non-Buddhists?
    Ms. Cefkin. There is that risk. And I think that we have 
seen incidences where that kind of rhetoric has helped to 
instigate violence. I do think that we have seen signs more 
recently that the government is more seized with the importance 
of tamping down this kind of rhetoric.
    In my visit to Karen State, I had the opportunity to meet 
with religious leaders, including a prominent monk, a prominent 
imam, and they both told me that in the past months they had 
formed an interfaith council, that they met regularly, that in 
any instances of any perceived provocations the government was 
very quick to call this council to meet.
    And it seemed that, at least in that one instance, the 
situation had improved, and I think that sort of effort has--is 
taking place in many parts of the country, though it is still 
not yet sufficient to address the problem.
    Mr. Connolly. Do we sense--yes, Mr.----
    Mr. Beck. Congressman, I just wanted to add also we are 
working with youth to build their awareness of the core issue, 
and using social media, which they are increasingly accessing. 
So we are working through Facebook and other social media 
outlets to develop early warning systems, educate to bring 
people together, especially young people, young leaders, to 
begin addressing this issue, and to be able--when it becomes 
inflamed again, to address it and to initiate an early warning 
system.
    So the early warning system is working with faith-based 
organizations or with other civil society organizations and 
also working with the President's office. It is becoming 
increasingly aware and building their capacity also to step in 
at the early moment.
    Mr. Connolly. Is there sufficient appreciation within the 
government that this violence, left unchecked, could 
significantly retard the ability of Burma, Myanmar, to reemerge 
in the family of nations.
    Ms. Cefkin. I do believe there is recognition. Our 
Ambassador, Derek Mitchell, has been very prominent leading 
diplomatic efforts in the country. He meets regularly with 
other international partners to review the situation, discuss 
what should be done. He recently led a mission to Rakhine 
State, along with two key Burmese ministers, to get a better 
handle on the situation, where the problems are, where there 
are some signs of progress.
    I should mention also the State Department has--our 
Conflict Stabilization Office also has an officer based at the 
Embassy in Rangoon who is dedicated to this issue.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Connolly. I thank the chair, and I thank the panel.
    Mr. Chabot. Thank you.
    The gentleman from Arizona, Mr. Franks, is recognized for 5 
minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. And I appreciate 
you, again, for holding this important hearing, and thank you 
all for being here.
    Among the many challenges that some of us are concerned 
about, and probably one of the most significant concerns I 
have, is the Burmese military's continued use of rape as a 
weapon of war and the recruitment of child soldiers. Despite a 
2002 through 2012 U.N. action plan to halt Burma's recruitment 
of child soldiers, this has continued.
    A little over a month ago, our office received yet another 
report that Burma army soldiers attacked predominantly 
Christian Kachin villages where they brutally gang raped two 
young girls. And these are, of course, just a couple of very 
well-documented patterns of sexual violence by the Burmese 
army.
    And Human Rights Watch has also closely documented how the 
Burmese military's recruitment and use of child soldiers 
continues. So I guess I have sort of a series of three main 
questions, and I will direct them to you, Mr. Singh, if that is 
all right.
    First, how does DoD justify engagement with a military that 
has a long recent record of committing these what should be 
called crimes against humanity?
    And, second, considering the Burmese military's history of 
failing to meet its requirements, what reassurances were given 
to the U.S. that the Burmese military will disband its child 
soldiers and use of rape as a weapon of war?
    And, finally, has the Obama administration implemented any 
strategies to effectively measure policies intended to decrease 
the number of child soldiers and the use of rape as a weapon of 
war?
    Mr. Singh. Thank you, Congressman. I greatly appreciate 
your interest and your raising of what are among the most 
fundamental issues that face us and that face all of us as we 
think about what our policy toward Burma should be and how it 
should proceed.
    There is no doubt that the Burmese military has a long 
history of substantial abuses, and that human rights abuses 
continue, including the kinds that you have mentioned, the most 
disturbing kinds. We absolutely do not believe that it is time 
now for any kind of comprehensive reengagement beyond the areas 
that we think will help this military move toward reform.
    We do not believe that the military will stop being an 
important factor in Burmese society. We do believe it needs to 
find a way out of being in the political and economic life, and 
it needs to find a way to transform itself into a responsible, 
credible, accountable institution that will start protecting 
its people instead of persecuting and threatening its people.
    And it is our considered view that very limited, 
calibrated, engagement is actually better than non-engagement, 
with a clear sense that normalization would require a lot of 
things to happen, some of which I mentioned in earlier question 
and answer and in my earlier testimony.
    I would like to turn to----
    Mr. Franks. Before you shift, but would those engagements 
consider implementing strategies to effectively measure 
policies that were intended to decrease the number of child 
soldiers and the use of rape as a weapon of war?
    Mr. Singh. That would be--actually, I think I will turn to 
Judith for precisely that piece, about how we and the State 
Department together are looking at that exact issue.
    Ms. Cefkin. Very much. That is very much, yeah, at the 
forefront, one of the conditions that are looking at. I will 
tell you possibly some glimmers of hope, that the government 
has signed up to a U.N. Action Plan to cease the use of child 
soldiers.
    Under that plan, there has been some limited progress of 
releases of child soldiers, and one of the sticking points has 
been allowing international access to military facilities to be 
able to verify whether or not there are child soldiers. That 
has been somewhat stalled, but just recently there was some 
limited progress of allowing international observers into some 
facilities.
    Possibly one thing worth mentioning, it is not only the 
Burmese military, but also some of the armed ethnic groups that 
have also been guilty on child soldiers, so that is another 
problem that needs to be tackled.
    Mr. Singh. The only thing I would add to that, and USAID 
has programming that is also aimed at helping with this issue--
and Greg might want to speak to it--but I want to also add that 
the government in Burma has taken a very strong stance, saying 
that they are going to address this problem. And then we want 
to help them live up to that commitment.
    They are going to address the problem of violence. They are 
going to address the problem of child soldiers.
    Mr. Franks. Well, Mr. Chairman, I would just hope that 
these things could be kept in mind because, you know, America's 
perspective if it is not clearly elucidated in these areas, 
then we really--you have got to wonder why we are doing any of 
this.
    Mr. Chabot. I thank the gentleman. His time has expired.
    The gentleman from Georgia, Mr. Collins, is recognized for 
5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I want to--we are 
just going to continue down this line. I think it is a line 
worth continuing. And you had--basically, the comment was just 
made, and one of the things I want to go back and frame just a 
little bit, I have listened in part of this, and I have been, 
like Mr. Collins, bouncing with a couple of other 
subcommittees.
    But one of the things that I have heard since I have been 
here, and also reading through testimony before, was--is we are 
engaging them. We are doing these things. It might be just a 
basic question, maybe it is just too basic, but what is their 
willingness to actually be engaged? And I think that is maybe a 
base question we need to ask here. Anybody want to try that 
one?
    Mr. Singh. If we are focusing on military to military, I 
will certainly--I can certainly start with that.
    Mr. Collins. Try that. And then we will go to this----
    Mr. Singh. More broadly. So actually, you know, this is a 
very interesting moment. I mean, honestly, with many countries 
the kind of programming that I am talking about, starting some 
initial engagements and some initial trainings on things like 
the rule of law, human rights, and other things, those are 
often not very welcomed.
    And I would say, having joined the State Department for the 
first human rights dialogue in Burma a year ago or so, I was 
really surprised by the interest and almost enthusiasm about 
understanding what it is the United States is wanting to talk 
to them about in these areas.
    There are certainly going to be Burmese military officers 
who don't want to reform and will cease a lot to lose. But we 
believe there will be those Burmese military officers and 
leaders who want to reform and see a path toward being a 
respected institution. And right now, there is an eagerness, a 
welcoming of this kind of engagement, and we believe that is an 
opportunity we should take advantage of.
    Mr. Collins. And before we--is that an eagerness on a 
lower--being in the military, is it--I mean, is this a lower 
officer level, or a leadership level? Really, where was the 
engagement there?
    Mr. Singh. I would say it has been both. We probably 
engaged more with some leadership, but the fact is this is an 
institution we hardly know. We have had no engagement for so 
long that we are in early days. And so leadership and sort of 
that middle and upper tier, we are definitely seeing 
indications that there is an interest in this kind of 
engagement, and we should--we believe we should see where it 
goes, but be--you know, one thing I would stress is be able to 
calibrate. We can do a little more, but if things don't go 
right we can do a little less.
    Mr. Collins. Okay. Well, if we--or go ahead.
    Ms. Cefkin. Certainly. No, I just--I was also going to make 
the point that the human rights dialogue was actually quite 
successful in terms of the candor of the discussion, including 
with the military. And we do sense, as Vikram Singh said, that 
there is certainly some quarters that are very receptive to the 
messages we have.
    I think it may be worth noting that those--many of those in 
the government leading the reforms currently are former 
military officers. So it seems to indicate that even before 
there were some beginning to think about the need to do things 
differently. And I think, you know, we shouldn't underestimate 
their desire for international respect, which some realize 
requires a completely different mode of operation and behavior.
    Mr. Collins. Well, and I think the other thing here is we 
are dealing with a country that has had to deal--or has worked, 
you know, through many situations which are outside what I will 
call international norms, international--you know, of standing 
within the community. They may see it, but they see it from a 
different perspective than we do, as far as, how do you live 
among an international community, and what are those standards? 
Because of the violence, because of the drug trades, 
everything, and also just a part of the world that is very 
difficult.
    That is the concern that I have, and it is not to belabor 
this point, and I think what you--the only concern that I have 
in what I have heard is laying out--because undoubtedly if 
there is some interest to talk about these things--and, again, 
we can get into several that my friend from Arizona and others 
talked about--is having more tangible, as it gets to that 
point, benchmarks to say, ``If we come to here, then we can 
offer this.''
    And as we go forward--and I think that is because it did 
say when they joined the U.N. plan on this--you know, child 
soldiers is--I think your comment was is that, you know, 
limited progress, but yet what you said was is they really 
didn't get on to verify.
    So my concern will be how we define ``limited progress.'' 
Does that mean we have got to go to the gate and look through 
the gate? Or do they actually let somebody in unfiltered? So, 
again, I appreciate your work there. This is not an easy part 
of the world. I am not saying there is an easy solution.
    And, really, that willingness to communicate sometimes is 
more--at this stage, may be more than what we can hope for. But 
I am sure we will do this, and, Mr. Chairman, I know you have 
been diligent in this category and will continue to look at 
this part of the world.
    Thank you very much for being here.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired.
    We are going to have votes here in just a minute, so I just 
have a couple more questions and then we will wrap it up.
    This summer, during a trip to Europe, President Thein Sein 
promised to release all political prisoners by the end of the 
year. Subsequently, some--but not all--political prisoners have 
been conditionally released. At the same time, there has been a 
significant rise in political prisoners in the months following 
President Thein Sein's pledge. More than 200 activists are now 
currently facing trial under old restrictive laws in the new 
Peaceful Assembly Act. In addition, more than 1,000 Rohingya 
have been unlawfully detained since mid-2012, and subjected to 
cruel and degrading treatment, in many instances. Well over 500 
farmers face trespassing charges for their ``plowing protests'' 
over government confiscation of their land.
    Given that the release of political prisoners was a key 
factor in the decision to suspend sanctions against Burma, and 
increase our economic relationship with the Burmese Government, 
what changes, if any, will the administration make to address 
this troubling trend and double-talk by the Burmese Government? 
Ms. Cefkin?
    Ms. Cefkin. Yes, Mr. Chairman. Let me just make a few brief 
comments, and I think my colleague, Greg Beck, may be able to 
add more. But you really hit the nail on the head when you 
talked about the arrests being made under old deficient laws.
    Fortunately, there is a recognition that those laws are 
deficient. There is an effort underway by Parliament to amend 
these laws to change--revise these laws, and we have some 
indications that there is progress being made on the assembly 
law that is the cause or the basis for many of the arrests you 
just cited.
    Mr. Beck already mentioned success that our USAID mission 
was very instrumental in facilitating, working toward a much 
better assembly law. So those are a couple of points.
    One other point I would make briefly is that one of the 
things the government has done is established a mechanism, a 
committee that is reviewing those currently incarcerated to 
determine which are prisoners of conscience, and that committee 
does include former political prisoners on the committee.
    We think it is a good mechanism, we think it is making 
progress, and we want to see it continue to operate and make 
progress.
    Mr. Chabot. Thank you.
    Mr. Beck, did you want to add to that?
    Mr. Beck. Yes, Mr. Chairman. I would just add that, as part 
of the U.S. mission, USAID is pursuing a calculated policy 
engagement that really test the political will of the 
Government of Burma.
    So targeting these key areas that will affect the people in 
the most impactful way--agriculture, economic reform, media--we 
have been working very closely with the Parliament to draft 
laws of association, the Farmer Protection Act, land use 
policies that really rise to international standards.
    When they initially were drafted, they were horrible, but 
we have seen a willingness from some of the key reformers to 
listen and to engage with their citizens, and the end result 
has been a fairly significant and positive advancement on those 
particular laws that we think will be most effective in really 
addressing the priority issues of the people of Burma.
    Mr. Chabot. Thank you. The bells you hear are the votes 
being called but I have two more questions.
    The State Department June 2013 report on human trafficking 
showed that in 2012 alone, Burma's Department of Social Welfare 
received 195 repatriated victims. In addition, there are 
reports that the unofficial count could be higher, with UNICEF 
placing the estimated number of Burmese girls trafficked to the 
Thailand brothels at 10,000 every year. In light of this 
information, could you please outline the impact that existing 
initiatives have had on human trafficking in Burma? What does 
the State Department hope to see from the next anti-TIP 
dialogue? Ms. Cefkin?
    Ms. Cefkin. Yes. I would say that somewhat in line with the 
human rights dialogue that we referenced a few moments ago, we 
actually were quite gratified by the level of the discussion 
that took place at the last TIP, Trafficking in Persons 
dialogue. And I think actually the ball is a bit in our court 
right now to follow through on some commitments that we made to 
identify funding necessary to help support the action plan that 
they derived to begin to seriously tackle this problem.
    Mr. Chabot. All right. Thank you. Then one more question 
and we will let you go. In 2011, the GAO reported that U.N. and 
U.S. agencies assisted Burma after a devastating cyclone with 
about $335 million in assistance, but that U.S. agencies needed 
to strengthen their monitoring of assistance. The report 
detailed that USAID took actions to help ensure U.S. funds were 
used as intended and did not benefit sanctioned entities, but 
that it had some monitoring weaknesses. In light of the ongoing 
concerns with rampant corruption and efforts taken by the 
military to benefit from Burma's new-found investment wealth, 
what actions has USAID taken to monitor its assistance to 
ensure it is reaching the intended recipients? Also, what 
effect, if any, has having an in-country presence had on USAID 
projects and programs aimed at addressing human rights issues? 
What progress have you achieved so far?
    Mr. Beck. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you.
    Mr. Beck. As an aside, I did want to say that while I 
didn't have an opportunity to present a welcome from my parents 
to my Congressman, I did want to introduce my daughter Tona, 
who is here with us today who has traveled----
    Mr. Chabot. That is even better.
    Mr. Beck. She has traveled to Burma, and she lived on the 
Thai-Burma border for 4 years. So this is an important issue 
for----
    Mr. Chabot. Excellent.
    Mr. Beck [continuing]. Our family.
    Mr. Chabot. Well, we welcome her today as well.
    Mr. Beck. Thank you. And thank you for raising this point. 
It is very important. Dr. Shah has been relentless in focusing 
on monitoring and evaluation of our programs for results as 
regards to Burma.
    We have actually increased our staffing from what we 
previously, 2\1/2\ years ago, one personal service contractor. 
We now have 24 staff on the ground, foreign service officers 
and national staff. Allows us the ability to have much more 
access, to have the ability to be out there to monitor our 
programs, to build the capacity of both our international NGOs.
    But as part of USAID forward, we are also building the 
capacity of local organizations who have the contextual 
understanding, who understand the dynamics of the community, 
also are able to identify where those sort of rent-seeking 
opportunities are, and to be able to address those, recognizing 
what our regulations are.
    And so we really do monitor very closely--it is built into 
our grants, it is built into our contracts. So I think we have 
made tremendous progress since that report came out.
    Mr. Chabot. Thank you very much.
    Just a little aside, for many years--I have been in 
Congress quite a few years and other offices prior to that. 
Sometimes I would speak at schools, and sometimes it was my 
kids' schools, where I would recognize my daughter or son in 
the audience. Whenever I did, it was always, ``Dad, why did you 
embarrass me like that?'' So your daughter was blushing and 
very embarrassed, I am sure. Anything you want to say about 
your dad? [Laughter.]
    We do appreciate the panel's testimony. It was very helpful 
this afternoon. I know some of the members were fairly 
aggressive, but that is the nature of the committee, as you 
probably know. I think you all handled yourselves very well.
    All members will have 5 days to supplement their statements 
or to submit additional questions, should they wish to do so.
    If there is no further business to come before the 
committee, we are adjourned.
    Thank you.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                  <Copyright><star>ab<pound>t<o-times>
               <Copyright><box><bullet><loz><careof><Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                  <Copyright><star>ab<pound>t<o-times>
                 <Hoarfrost><careof><Rx><bullet><star>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
     <Copyright><star>ab<pound>t<o-times><diamond><box><star><loz>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
